No.

_

IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020

MICHAEL ROBBINS,
Petitioner

v.
THE PEOPLE OF THE STATE OF CALIFORNIA,
Respondent
On Petition for a Writ of Certiorari
to the Court of Appeal of California, Fourth Appellate District,
Division One
PETITION FOR WRIT OF CERTIORARI

MATTHEW A. SIROKA
(California State Bar No. 233050)
101 Lucas Valley Road, Suite 384
San Rafael, CA 94903
Telephone: (415) 522-1105
Attorney for Petitioner

T ABLE OF CONTENTS

Page

TABLE OF AUTHORITIES

ii

QUESTION PRESENTED

1

PARTIES TO THE PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 2
PETITION FOR WRIT OF CERTIORARI

3

OPINIONS BELOW

3

JURISDICTION

4

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE

5

REASONS FOR GRANTING CERTIORARI

7

THIS CASE PRESENTS AN IMPORTANT AND RECURRING QUESTION OF
CONSTITUTIONAL LAW THAT SITS AT THE HEART OF CONTEMPORARY
CONCERNS ABOUT RACIAL BIAS AND LAW ENFORCEMENT
7
CONCLUSION

13

CERTIFICATE OF COMPLIANCE

14

APPENDIX A

15

APPENDIX B

67

PROOF OF SERVICE

69

TABLE OF CONTENTS

Page
CONSTITUTIONAL AND STATUTORY PROVISIONS

California Health and Safety Code § 11378

5

California Penal Code § 187

5

California Penal Code § 29800(a)(1)

5

Supreme Court Rule 13.1

4

U.S. Constitution, Amendment VI

4
CASES

Pena-Rodriguez v. Colorado, 137 S. Ct. 855, 868 (2017)

10

United States v. Abbell, 271 F.3d 1286 (lIth Cir. 2001)

8

United States v. Carson, 455 F.3d 336 (D.C. Cir. 2006)

8

United States v. Edwards, 303 F.3d 606 (5th Cir. 2002)

8

United States v. Ginyard, 444 F.3d 648,652 (D.C. Cir. 2006)

8

United States v. Kemp, 500 F.3d 257 (3d Cir. 2007)

8

United States v. Thomas, 116 F.3d 606 (2d Cir. 1997)

8

United States v. Wood, 299 U.s. 123, 146,57 S. Ct. 177,81 L. Ed. 78 (1936)

8

Williams v. Johnson, 840 F.3d 1006 (9th Cir. 2016)

8

11

QUESTIONS PRESENTED

This Petition presents the following related questions under
the Sixth Amendment's jury trial guarantee:

1.

What constitutes juror bias for purposes of removing a sitting
juror during deliberations?

2.

Does the Sixth Amendment permit removal of a lone holdout
juror who found the government's investigation inadequate, and
believes the failure to adequately investigate was due to implicit
racial bias by law enforcement?

1

PARTIES TO THE PROCEEDINGS
The parties to the proceedings were the State of California and

petitioner Michael Robbins.

2

PETITION FOR WRIT OF CERTIORARI

The petitioner, MICHAEL ROBBINS, respectfully petitions
this Court for a writ of certiorari to review the judgment and opinion
of the California Court of Appeal, Fourth Appellate District, Division
One.
OPINIONS BELOW

The unpublished opinion of the California Court of Appeal
(Case Number 0075544), which is the subject of this petition is
attached as Appendix (App.) A. People v. Robbins, 2020 Cal. App.
Unpub. LEXIS 469 (Cal. App. 4th Dist. Jan. 23, 2020).
The California Supreme Court's one page order denying
review (Case Number #S260949), is attached as Appendix B.

People v. Robbins, 2020 Cal. LEXIS 4017 (Cal., June 17, 2020).
The relevant trial court proceedings are unpublished.

3

JURISDICTION
The decision of the California Court of Appeal to be reviewed
was filed on January 23,2020. The California Supreme Court denied
discretionary review on June 19, 2020. This petition is filed within
150 days of that date. Order of March 19, 2020; Rule 13.1. Mr.
Robbins invokes this Court's jurisdiction under Title 28 United
States Code, section 1257, subdivision (a).
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
The Sixth Amendment of the United States Constitution
provides, in pertinent part, "In all criminal prosecutions, the accused
shall enjoy the right a speedy and public trial, by an impartial jury..."
U.s. Const. Amend. VI.

4

STATEMENT OF THE CASE

Michael Robbins was charged with murder (Cal. Pen. Code, §
187(a)), unlawful possession of a firearm by a felon (Cal. §
29800(a)(1); and possession for sale of a controlled substance (Cal.
Health & Saf. Code, § 11378).
After three days of evidence, the jury deliberated for about a
day, and reached guilty verdicts on the felon-in-possession and
possession-for-sale counts, but was deadlocked on the murder
count. App. A, p. 2. The jury foreman reported to the trial court that
the lone holdout-Juror 8, an "older Black woman" -was refusing to
deliberate. The foreman explained that Juror 8 "cannot look at the
evidence ... because of a racial bias" -she "did not like the fact that
two [Wjhite people were pointing the finger at a [Bjlack person."
App. A, p. 2. The court conducted an inquiry, in which some jurors
claimed Juror 8 had preconceived opinions on race, because of her
comments that, for example, the police "didn't look any further"
once "two [Wjhite people pointed to one [Bjlack person." App. A, p.

2.
5

One juror characterized Juror 8's position as "'basically the
cops did not do their job because it was two [W]hite people pointing
the finger at a [B]lack man. ['J[] ... ['J[] ... [S]he was pretty adamant
that [Robbins] wasn't even there and that.. ..the testimony given was
false testimony.''' App. A, p. 13. More generally, jurors indicated
Juror 8 believed that if the defendant had been White, the case
would have been handled differently. App. A, p. 16.
When questioned, Juror 8 denied that "the fact that either the
witnesses or the police or the defendant were not of the same race ...
affect[ed] [her] ability to be fair and impartial to both sides." App.
A, p. 3.

"The trial court found that Juror 8 failed to deliberate and
exhibited racial bias. Accordingly, the court replaced her with an
alternate juror and instructed the reconstituted jury to begin
deliberations anew. After about one hour, the jury returned guilty
verdicts on all counts." App. A, p. 3.
In its unpublished decision, the Court of Appeal modified
aspects of the sentence but otherwise affirmed. App. A, p. 51-52.
6

The court declined to rule on whether Juror 8 had deliberated, but
rather found that "Juror 8 improperly allowed racial bias to
influence her deliberations." App. A, p. 3, n. 3.
The California Supreme Court denied discretionary review on
June 17, 2020. App. B. Two of the court's seven justices were of the
opinion that review should have been granted. App. B.
REASONS FOR GRANTING CERTIORARI
THIS CASE PRESENTS AN IMPORTANT AND
RECURRING QUESTION OF CONSTITUTIONAL LAW
THAT SITS AT THE HEART OF CONTEMPORARY
CONCERNS ABOUT RACIAL BIAS AND LAW
ENFORCEMENT

This case presents the important and deceptively simple
question of what constitutes juror bias sufficient to excuse a sitting
juror over defense objection. This Court's jurisprudence "in the area
of juror bias is sparse. Although we know that biased jurors may be
dismissed from deliberations without offending the Constitution, we
don't know precisely what it means for a juror to be biased."
7

Williams v. Johnson, 840 F.3d 1006, 1010 (9th Cir. 2016), citing United
States v. Wood, 299 U.S. 123, 146, 57 S. Ct. 177, 81 L. Ed. 78 (1936)
(noting that "the Constitution lays down no particular tests" for
juror bias). This case presents just such a question.
Also, this case sits at another important Sixth Amendment
threshold on the issue of bias, because in this case the juror in
question was the lone holdout juror for acquittal. Circuit courts have
held that dismissal of a holdout juror must be entirely independent of
the juror's views of the strength of the evidence of the case. United

States v. Carson, 455 F.3d 336, 352 (D.C. Cir. 2006) (per curiam);
United States v. Kemp, 500 F.3d 257, 304-05 (3d Cir. 2007); United
States v. Abbell, 271 F.3d 1286, 1302 (11th Cir. 2001); United States v.
Thomas, 116 F.3d 606, 622 (2d Cir. 1997); United States v. Edwards, 303
F.3d 606, 634 (5th Cir. 2002); United States v. Ginyard, 444 F.3d 648,
652 (D.C. Cir. 2006).
This case poses the question, what if the juror's alleged bias
manifests (at least in part) as a belief in the inadequacy of the
government's investigation, which is itself the defense theory of the case?
8

Here, Juror No.8, an African-American woman, expressed her
concern that the police had not sought to corroborate alibis of two
White suspects, nor conducted any forensic testing of them, but
simply accepted their accusations against petitioner, who is Black.!
Noting the various evidentiary lacunae pointed out by defense
counsel, during deliberations she observed that had Robbins been
White, the police might not have been so quick to settle on him as
the prime suspect. For this, she was accused of racial bias, and
removed from the jury. The Court of Appeal noted that there "were
plenty of reasons to doubt" the credibility of the two primary
witnesses, who were White. App. A, p. 25. Yet despite the witness
credibility problems, the court below held that because Juror 8 was
imputing implicit bias to the police as an explanation for their failure
to follow through on the investigation, this was "anti-police bias"
which justified removing her.

! In accordance with the opinion below, Petitioner capitalizes
the terms "Black" and "White." App. A, p. 2.
9

Issues of racial bias in law enforcement and the criminal
justice system are at the forefront of the national conversation. This
country is struggling to come to terms with its legacy of slavery and
white supremacy and is trying to come "ever closer to the promise of
equal treatment under the law that is so central to a functioning
democracy." Pena-Rodriguez v. Colorado, 137 S. Ct. 855, 868 (2017).
Defendants and the government are both entitled to juries free from
bias, and especially from racial bias. Ibid. And yet, jurors do not live
in a vacuum, and there is room for healthy skepticism about whether
the law is enforced equally in all circumstances for all persons in the
United States. This case asks the Court to weigh in on the question
of whether such skepticism itself is a form of disqualifying bias.
Petitioner is unaware of any cases that present the question in
this form, making this case a proper vehicle for exploring and
resolving it. Had Juror 8 simply expressed skepticism of the two
White witnesses because they were White, and refused to convict on
that basis, the question of bias would be clear. Here, however, the
defense theory of the case was that the police had failed to
10

adequately investigate, and that the two (White) witnesses were
lacking in credibility. Juror 8 accepted this theory, and as the Court
of Appeal noted, there were reasons to doubt the credibility of the
witnesses. App. A, p. 25. There were legitimate reasons to be
concerned about whether police had done enough to eliminate other
potential suspects or to bolster the credibility of the witnesses. Juror
8's concern about potential bias in law enforcement simply meant
she found the defense theory more plausible.
Juror 8 was concerned that the White accusers were being
given more credence than they deserved under the facts of the case,
and that police unreflective trust of White accusers where a Black
defendant was concerned was commonplace in our society. Juror 8
never said or implied that White accusers of Black suspects are
inherently untrustworthy; she said that our society unreflectively

finds White accusers of Black suspects to be inherently trustworthy.
And, Juror 8 was saying, this is a plausible explanation for why the
police failed to adequately investigate the case.

11

Juror 8 never said she harbored a reasonable doubt solely
because of the race of the defendant and the accusers. Her
reasonable doubt came from evidentiary lacunae and the primary
accusers' credibility problems. Juror 8 said that the race of the
accusers and the defendant were likely explanations of why there
had been inadequate follow-up. Petitioner does not believe this
conclusion is evidence she "applied a different standard for
evaluating the prosecution's evidence because White witnesses were
accusing a Black suspect." App. A, p. 25. Nor does such a view
reflect "general anti-police bias." App. A, p. 26. Yet these are
exactly the beliefs the Court of Appeal attributed to Juror 8.
Moreover, it is hard to escape the conclusion that Juror 8's
removal was not independent of her views on the case. This Court
has never clarified whether the Sixth Amendment requires removal
of a sitting juror to be entirely independent of her views on the case,
particularly when she is known to be a holdout for acquittal.
The Court should grant certiorari, to address head-on whether
observations about demonstrative racial bias in the justice system,
12

itself constitutes racial "bias," and whether suggesting that implicit
law enforcement bias could explain a lack of investigation
constitutes "anti-police" bias. Moreover, the Court should grant
certiorari to clarify the conditions under which a sitting juror may be
removed. These are pressing questions as our society confronts
issues of racism and law enforcement daily in our criminal
courtrooms. Jurors must know if they are to be precluded from
expressing free, frank and (often accurate) assessments of the
institutionalized biases that inhere in our system, or whether they
will be excluded from jury service for doing so.
CONCLUSION

For the reasons stated herein, the Court should grant
certiorari.
Dated: October 26, 2020

R/;ctf JD: su~~,ed,

/::tI

<"

-

._-

kFI'HEW . SIROKA
Attorney for Petitioner

13

